OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
MICROFINANCE ACTIVITY
UNDER ITS PROVINCIAL
ECONOMIC GROWTH
PROGRAM
AUDIT REPORT NO. E-267-11-003-P
AUGUST 4, 2011




BAGHDAD, IRAQ
Office of Inspector General


August 4, 2011

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Office of Inspector General/Iraq, Director, Lloyd Miller /s/

SUBJECT:             Audit of USAID/Iraq’s Microfinance Activity Under Its Provincial Economic Growth
                     Program (Report No. E-267-11-003-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

This report contains three recommendations to improve the implementation of USAID/Iraq’s
microfinance activities.    Management decisions have been reached on all three
recommendations.      Please provide the Audit Performance and Compliance Division
(M/CFO/APC) with evidence of final action upon completion of the planned corrective actions.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
USAID/Iraq
Box 47, Unit 2047
APO, AE 09870-2047
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 4

     Microfinance Activity Did Not Focus on the Poor ....................................................... 4

     Jobs Indicator Data Calculated Inconsistently ........................................................... 5

Evaluation of Management Comments........................................................................ 7

Appendix I—Scope and Methodology ......................................................................... 8

Appendix II—Management Comments ...................................................................... 10

Appendix III—Composite Indicator: Progress in Institutional Development .......... 12
SUMMARY OF RESULTS
According to USAID, continued stability in Iraq requires activities that stimulate private sector
growth and create jobs, as microfinance activities do. Microfinance provides small amounts of
credit to borrowers who lack access to it. In Iraq, because there is little tradition of credit or
bank lending and collateral requirements are high, many poor and low-income individuals are
excluded from bank services. Microfinance institutions were established in Iraq starting in 2003
with funds from the U.S. Government to provide financial services to this population.

USAID/Iraq’s current microfinance activity began in January 2008, when USAID/Iraq awarded a
contract to Louis Berger Group, Inc. (Louis Berger, the contractor) for the $121 million Provincial
Economic Growth Program, consisting of a 2-year base period and 2 option years. Subsequent
contract modifications increased the total estimated costs to $174 million and extended the end
date to January 2013. According to USAID/Iraq, as of December 31, 2010, $138 million had
been obligated and $89 million had been disbursed. The purpose of the contract was to provide
business development and financial services to beneficiaries in strategic locations throughout
Iraq. The program encompassed seven areas: (1) business development services, (2) youth
initiative, (3) international trade, (4) business enabling environment, (5) investment promotion,
(6) small and medium enterprise lending, and (7) microfinance—the focus of the audit.

The audited activity supports microfinance institutions providing loans to owners of small
enterprises throughout Iraq. USAID/Iraq’s previous microfinance activity was also implemented
under a contract with Louis Berger, from September 2004 to March 2008. During that period,
Louis Berger reported 12 microfinance institutions funded through grants (for loan capital and
operating costs) at a cost of $23 million. Under the current microfinance contract, the contractor
funded nine1 microfinance institutions through grants (primarily for loan capital) at a cost of $29
million, according to contractor records. In addition, the contractor provided technical
assistance and training to the microfinance institutions. As of December 31, 2010, the
USAID-supported microfinance institutions had provided 257,209 loans valued at $593 million,
according to contractor records. From program inception to December 2010, the average loan
size was about $2,300; the average size of outstanding loans as of December 2010 had
decreased to $1,590 according to contractor reporting.

The objective of our audit was to determine whether USAID/Iraq’s microfinance activity was
achieving its main goal of increasing access to inclusive and sustainable financial services in
Iraq. According to program documents, “inclusive” incorporates two aspects: (1) access to
financial services not just by microenterprise owners but also by the poor and (2) the integration
of microfinance into the formal financial sector. According to the program performance
monitoring plan, “sustainable” microfinance2 is measured by the number of institutions receiving
assistance, the extent to which these institutions are able to establish a presence in their
economies (as measured by the number and value of their loans outstanding), and the levels of
sustainability achieved.

1
  According to the contractor, three additional microfinance institutions received technical assistance and
training, but did not receive grants.
2
   According to guidance in USAID’s Automated Directives System, “Microenterprise Development: A
Mandatory Reference for ADS Series 200” (page 17), a financially sustainable microfinance program
requires that income from interest and fees charged to borrowers cover the program’s operational and
financial costs.


                                                                                                         1
Except for any possible adverse effects of not being able to confirm loans with borrowers (as
described in Appendix I, security restrictions prevented auditors from confirming loans), the
audit determined that USAID/Iraq’s microfinance activity had increased access to sustainable
financial services, but the activity did not incorporate metrics for inclusive financial services or a
focus on the poor despite statutory and regulatory guidance.                 Regarding sustainable
microfinance, during 2008 and 2009, the contractor’s microfinance activity met3 its annual
performance targets for the number of loans and the total value of loans disbursed by
microfinance institutions, as shown in the following table.

            Loans Disbursed by Microfinance Institutions Met 2008, 2009 Targets

                                         2008                                       2009
    Indicator
                           Target                 Result               Target                Result
Number of loans            45,715                 43,666              54,287                 61,968
Value of loans           $59.7 million          $62.8 million       $70.9 million          $83.0 million

As of December 2010, all nine microfinance institutions that received grant funds had reached
operational sustainability, and six of nine had reached financial sustainability.4 The contractor
met targets for these two performance measures in 2008 and 2009. In addition, the
microfinance activity had achieved indicator targets in 2009 for progress in institutional
development. This complex performance indicator5 quantifies five aspects of performance and
other factors including the size of the microfinance institution and converts the summation to a
letter score. Details on the indicator are included in Appendix III.

Although the microfinance activity was achieving its sustainability goal, the audit disclosed
issues requiring management attention.

    USAID/Iraq’s microfinance activity lacked a clear and continuing focus on the poor, as
    USAID policy prescribes. USAID/Iraq’s contract with Louis Berger did not specifically
    require a focus for loans to the poor, and the activity did not have indicators to measure
    such lending. Judging by the trends in loan sizes and according to contractor management,
    a number of microfinance loans were going to the poor. However, this lending was not
    reflected in performance targets and metrics (page 4).

    Louis Berger did not calculate consistently the number of jobs (new and existing) that are
    sustained at firms receiving microloans (page 5).

To address the issues outlined above, the audit makes three recommendations to the mission:

1. Revise its performance monitoring plan to include performance indicators and targets for
   reaching poor borrowers for the remaining 2 years of the Provincial Economic Growth
   Program, particularly for microfinance institutions that have attained performance targets for
   financial sustainability (page 5).



3
  The audit used a 5 percent materiality threshold in determining whether targets were met.
4
   Operational sustainability and financial sustainability are the same as operational self-sufficiency and
financial self-sufficiency and are defined in Appendix III.
5
   The audit verified the following data incorporated into the performance indicator: total number of
borrowers, value of loan portfolio, and average loan size.


                                                                                                           2
2. Require the contractor to update its performance monitoring plan to specify data review
   mechanisms, identify any known data limitations, and clarify data sources (page 6).

3. Perform a data quality assessment of the jobs performance indicator: number of jobs
   (new and existing) that are sustained at firms receiving microloans (page 6).

Detailed findings follow. The evaluation of management comments is on page 7. Appendix I
presents the audit scope and methodology. The mission’s comments are included in their
entirety as Appendix II.




                                                                                         3
AUDIT FINDINGS
Microfinance Activity Did Not
Focus on the Poor
The Microenterprise for Self-Reliance and International Anti-Corruption Act of 2000 (Public Law
106-309, October 17, 2000) set a legislative target of 50 percent of USAID’s microfinance
resources going to the very poor. The Microenterprise Results and Accountability Act of 2004
(Public Law 108-484, December 23, 2004) defined the very poor as those in the bottom 50
percent below the poverty line of the country or those living on less than the equivalent of $1 per
day. In addition, USAID policy states, “USAID support for any microenterprise development
program requires a clear and continuing focus on providing services to poor
microentrepreneurs.”6 This policy further states that USAID views financial sustainability not as
an end in itself, but as a means to provide sustainable benefits to poor microentrepreneurs. The
USAID mission is responsible for developing a plan for providing services to poor
microentrepreneurs. This plan should include appropriate performance measures.

Nevertheless, USAID/Iraq’s microfinance activity did not have a “clear and continuing focus” on
the poor7 despite statutory and regulatory guidance. The contractor’s performance monitoring
plan included four performance indicators measuring sustainability, jobs, the number of loans,
and the value of loans. However, no indicators in the performance management plan measured
outreach to the poor, and the indicators measuring the number and value of loans did not
differentiate between loans to the poor and loans to the nonpoor. The contractor’s annual work
plans referred to inclusive finance, but did not include metrics specifically aimed at the poor.
For example, the second year work plan discussed an increased emphasis on practices such as
less formal requirements for collateral, group lending, and outreach to women. Each emphasis,
if successfully implemented, might have expanded loans to poor microentrepreneurs. However,
these activities in the work plan did not include performance measures. Likewise, the third year
work plan did not address measuring progress in expanding lending to poor
microentrepreneurs.

Nonetheless, some microfinance institutions’ practices in effect addressed poverty lending. For
example, three microfinance institutions had targets for average loan size in their grant
agreements, and three had targets for loans to women. In addition, contractor reporting showed
that three microfinance institutions started offering group loans, a product designed for poor
borrowers without collateral.

The lack of a clear and continuing focus on the poor by the USAID/Iraq microfinance activity
was attributable to several factors.

    USAID/Iraq’s contract with Louis Berger focused on sustainability but did not require the
    contractor to develop activities and metrics for measuring lending to poor entrepreneurs.
    This aspect of the contract did not align with USAID/Iraq’s 2007 microfinance strategy

6
  “Microenterprise Development: A Mandatory Reference for Automated Directives System Series 200,”
pages 13 and 18.
7
  According to the World Bank Web site, approximately 23 percent of the Iraqi population is living in
poverty. According to the contractor’s June 2010 report, “State of Iraq’s Microfinance Industry,” the
poverty line in Iraq is $2.20 per day.


                                                                                                   4
      document,8 which noted that targets related to goals such as poverty reduction should be
      measured by appropriate indicators.

      The microfinance activity has other goals that divert the focus from the poor. For example,
      in the mission’s FY 2009 Performance Plan and Report, USAID/Iraq emphasized stability
      and jobs as the goals of microenterprise and economic growth activities: “Continued stability
      in Iraq requires creation of jobs which provide an economic alternative to insurgent activity,”
      and “With an already bloated public sector, the private sector must be the source of new
      jobs.”

      According to USAID officials, microfinance programs typically focus on sustainability in a
      postconflict environment; in conflict zones, there is a trade-off between outreach and
      sustainability. For example, the 2007 USAID/Iraq-funded strategy document stated: “In the
      early phases of transition from conflict, experience shows that efforts to build and strengthen
      individual retail microfinance providers yield the best results.”

      Mission and contractor officials have stated that they do not want to impose unrealistic
      requirements on microfinance institutions for managing their organizations—e.g., telling
      them what products to sell and which customers to target.

Judging by loan sizes and according to contractor management, a number of microfinance
loans were going to the poor. However, without a clear and continuing focus on the poor, this
lending is not reflected in performance management as evidenced by the lack of performance
targets and metrics. As a result, the program is currently focused on sustainability to the
detriment of poverty reduction.

      Recommendation 1.          We recommend that USAID/Iraq revise its performance
      monitoring plan to include performance indicators and targets for reaching poor
      borrowers for the remaining 2 years of the Provincial Economic Growth Program,
      particularly for microfinance institutions that have attained performance targets for
      financial sustainability.

Jobs Indicator Data
Calculated Inconsistently
Automated Directives System 203.3.5.1 states that, in order for performance data to meet
general data quality standards for reliability, the data should reflect stable and consistent data
collection processes and analysis methods. Different analysts should come to the same
conclusions if they were to repeat the data collection and analysis processes. In addition,
Automated Directives System 203.3.8.4 requires missions to conduct quality assessments
within the past 3 years for all performance data formally submitted in the mission’s annual
performance report that will be used to prepare USAID’s Performance and Accountability
Report.

However, the contractor reported data for the jobs performance indicator, number of jobs (new
and existing) that are sustained at firms receiving microloans, that had been calculated
inconsistently. The program goal was to create and sustain 119,148 jobs in the first 3 years of


8
    The Iraq Microfinance Strategy, February 25, 2007.


                                                                                                   5
the contract.9 The contractor reported 81,636 jobs sustained in its first year, meeting the annual
target of 79,432. In the second year, the contractor reported 156,789 jobs, exceeding its annual
target of 94,325.

According to the contractor, the results far exceeded the second-year target because of a
change in methodology for calculating jobs created and sustained. At the beginning of the
program, USAID/Iraq applied a ratio of 1.3 jobs (the borrower’s and an additional third of a job)
for every $1,000 in loans disbursed. In the second year of the program, USAID revised the
methodology, abandoning calculation in favor of directly reporting the actual number of jobs. On
loan applications submitted to microfinance institutions, borrowers reported the number of
employees, which the institutions entered into a database. Loan officers would verify this
number during borrower visits and revise the information as necessary. However, one
microfinance institution did not apply the revised methodology for second-year reporting, instead
using the prior formula.

In addition to the inconsistent method for calculating data, the performance monitoring plan did
not clearly distinguish the data source, listing only the loan officer. Data in loan files at two of
the three tested microfinance institutions did not match information in the contractor database
for the jobs indicator. This occurred because loan officers were recording data changes directly
into the database based on site visits to borrowers without annotating the borrower loan files
kept at their institutions to indicate changes in jobs created and sustained.

This inconsistent data calculation methodology came about for several reasons. First, a
contractor official explained that the microfinance institution that continued using the old method
for calculating the number of jobs created and sustained did so because its information system
lacked a field for entering data on the number of actual jobs. Second, although required,
USAID/Iraq has not conducted a data quality assessment for this indicator. Third, during site
visits, USAID/Iraq personnel did not verify reported data. Fourth, the performance monitoring
plan did not specify how data was to be reviewed or list any known data limitations.

As a result of the inconsistent calculation methodologies employed, the reliability of data
reported to USAID was diminished. Without reliable performance data, decision makers have
less assurance about whether a program met, exceeded, or fell short in achieving its program
objectives and related targets.

      Recommendation 2. We recommend that USAID/Iraq require the contractor to update
      its performance monitoring plan to specify data review mechanisms, identify any known
      data limitations, and clarify data sources.

      Recommendation 3.          We recommend that USAID/Iraq perform a data quality
      assessment of the jobs performance indicator: number of jobs (new and existing) that
      are sustained at firms receiving microloans.




9
    USAID/Iraq has extended the contract to 5 years.


                                                                                                  6
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, the mission agreed with the three recommendations and
described planned corrective actions. Based on the mission’s response and planned actions,
we consider that management decisions have been reached on all three recommendations.

Regarding Recommendations 1 and 2, the mission required the contractor to revise its
performance monitoring plan to include indicators and targets for reaching poor borrowers. The
revision to the performance management plan also included updating the Performance Indicator
Reference Sheets to explain known data limitations and data sources. The contractor submitted
the revised performance-monitoring plan to the mission for review and approval in May 2011.
The mission expects to complete its implementation of these actions by September 30, 2011.

Regarding recommendation 3, the mission plans to conduct a data quality assessment in
October 2011. The contractor is including in the revised performance monitoring plan a data
review mechanism to verify and validate the data on jobs created and sustained. The mission
will inspect these systems and document the review in a formal data quality assessment. The
mission expects to complete the data quality assessment by December 30, 2011.

A determination of final action on these recommendations will be made by the Audit
Performance and Compliance Division on completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirety in Appendix II.




                                                                                                    7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. Except for any adverse effects of not being
able to confirm loans and balances with borrowers (security and logistical restrictions prevented
us from doing so), we believe that the evidence obtained provides that reasonable basis. The
objective of this audit was to determine whether USAID/Iraq’s microfinance activity was
achieving its main goal of increasing access to inclusive and sustainable financial services in
Iraq.

We conducted fieldwork at USAID/Iraq and at Louis Berger’s office in the Mansoor District of
Baghdad. We also conducted a site visit to one microfinance organization and met with
representatives from two others at a secure third location. The organizations were Al-Bashaer,
in Baghdad, and Al-Aman and Al-Thiqa in Kirkuk. We judgmentally selected these three
microfinance institutions (out of nine) for testing based on funding amounts, diversity of location,
and nationality. Concerning the last factor, we selected two indigenous microfinance
organizations and one (Al-Thiqa) that was created by an international organization. In all, our
three selected microfinance institutions represented 66 percent of the value of all outstanding
loans held by program grant recipients.

We identified and reviewed the internal controls employed by both USAID/Iraq and the
contractor that were significant to answer the audit objective. At USAID/Iraq, we reviewed
controls for monitoring and oversight by mission personnel, portfolio reviews by USAID
management, performance monitoring plan reviews by USAID, data quality assessments,
voucher reviews and approvals, and designation letters outlining the responsibilities of the
contracting officer’s technical representative. At the contractor’s office, we reviewed controls for
the collection and reporting of financial data from microfinance institutions, verification of
reported indicator results, award and management of grants and subcontracts, and monitoring
and oversight conducted by contractor personnel.

The scope of the audit focused on reported results for the microfinance activity’s second year,
from April 2009 until March 2010. The microfinance activity has three main components: grant
making, institutional development through training and technical assistance, and industry
building. The audit covered the first two activities. As of December 31, 2010, USAID/Iraq had
obligated $137,772,580 and had expended $88,610,824 on the Provincial Economic Growth
Program contract. The mission (through the contract) did not require Louis Berger to break out
financial data uniquely for the microfinance activity. We conducted our fieldwork between
April 18, 2010, and March 1, 2011.

Methodology
To answer the audit objective, we identified the activity’s goals, interviewed mission and
contractor officials, and reviewed program documents including the contract, contract
modifications, the contractor’s performance monitoring plan, and contractor annual work plans.



                                                                                                  8
                                                                                       Appendix I


We interviewed key contractor personnel in Baghdad, including senior management, the
microfinance director, monitoring and evaluation director, senior grants manager, and training
advisor. We also interviewed managers from the microfinance institutions examined. We also
reviewed USAID policy and guidance specific to microfinance, including Automated Directives
System 219, “Microenterprise Development,” and “Microenterprise Development: A Mandatory
Reference for Automated Directives System Series 200.” We also reviewed USAID guidance
on performance management.

We tested three microfinance institutions’ loan portfolios to determine whether the number of
loans and the value of loans disbursed reported to USAID were reliable. For each microfinance
institution judgmentally selected, we drew a random sample of borrowers at a 90 percent
confidence level and 4 percent precision. We examined borrower files and compared key data
points with data stored in the contractor’s database. These data points were loan amount, loan
balance, disbursement date, delinquency status, borrower sex, and number of jobs sustained.
We determined that, for the three microfinance institutions tested, the data were reliable with the
one exception of jobs sustained. We did not visit actual borrowers to verify the information in
the files due to security and logistical restrictions.

We tested or reviewed supporting documentation for two performance indicators measuring the
effectiveness of training and technical assistance. We confirmed whether these indicators had
undergone any data quality assessments or other independent verification. We also examined
supporting documentation for training conducted and interviewed beneficiary microfinance
institutions to obtain feedback on the quality of training and technical assistance. We reviewed
grant agreements with three microfinance institutions and compliance with grant requirements
including policies and procedures at the contractor.

During fieldwork, we relied on staff employed by USAID/Iraq and by the U.S. Provincial
Reconstruction Team in Kirkuk to assist in reviewing loan documents written in Arabic. All
interviews were conducted in English. The audit used a 5 percent materiality threshold in
determining whether performance targets were met for the loan portfolios of microfinance
institutions.




                                                                                                 9
                                                                                  Appendix II




MANAGEMENT COMMENTS


July 14, 2011


MEMORANDUM
UNCLASSIFIED

TO:             Lloyd Miller, Director Office of Inspector General/Iraq

FROM:           Alex Deprez, Acting Mission Director /s/

SUBJECT:        Management Response to Draft Audit Report E-267-11-00x-P


REFERENCE: Office of Inspector General (OIG)/Iraq draft report entitled “Audit of USAID/Iraq’s
Microfinance Activity Under its Provincial Economic Growth Program” transmitted to the Mission
Director dated June 19, 2011

Thank you for the opportunity to comment on the referenced draft audit report of USAID’s
Microfinance Activity Under its Provincial Economic Growth Program. USAID/Iraq concurs with
the audit findings and recommendations with the Management comments embedded in
responses to the recommendations. Specifically we have responded to the three
recommendations outlined in the draft OIG audit report, addressing actions which are soon to
be implemented.

Each of the findings and recommendations have been examined to determine 1) whether the
Mission is in agreement, and 2) what actions should be undertaken in response to the audit.

USAID/Iraq recognizes the value of this audit as a management tool to further strengthen our
programs. We extend our appreciation to OIG/Iraq for the cooperation exhibited throughout the
production of this report.


Recommendation No. 1:

We recommend that USAID/Iraq revise its performance monitoring plan to include performance
indicators and targets for reaching poor borrowers for the remaining 2 years of the Provincial
Economic Growth Program, particularly for microfinance institutions that have attained
performance targets for financial sustainability.




                                                                                           10
                                                                                        Appendix II



Recommendation No. 2:

We recommend that USAID/Iraq require the contractor to update its performance monitoring
plan to specify data review mechanisms, identify any known data limitations, and clarify data
sources.

Management Comments: USAID/Iraq agrees to the recommendations (No. 1 and No. 2)

Based on the recommendation, the contractor revised and submitted the Performance
Monitoring Plan (PMP) to the Contracting Officer’s Technical Representative (COTR) on May
22, 2011 for review and approval. It now includes indicators and targets for reaching poor
borrowers. The revised PMP covers the period February 2011-January 2013, or until the end of
the project. Further review is ongoing by the COTR.

In addition, the Performance Indicator Reference Sheets (PIRS) in the PMP clearly explains
known data limitations and data sources. It also includes a description of the data management
systems to ensure verification and continued quality assurance.

Target date for completion: September 30, 2011


Recommendation No. 3:

We recommend that USAID/Iraq perform a data quality assessment of the jobs performance
indicator: number of jobs (new and existing) that are sustained at firms receiving microloans.

Management Comments: USAID/Iraq agrees with the recommendation.

A data quality assessment (DQA) will be conducted in October 2011. In the revised PMP, the
contractor plans to introduce a rigorous data review mechanism to verify and validate the data
on jobs created and sustained furnished by the partner microfinance institutions. Consistency
and reliability of the data submitted by the partner microfinance institutions will be ensured by
visiting clients in the field. The clients and loan officers will be primary sources of information.
EGA will inspect these systems once operational and document this review in a formal DQA.

Target date for completion: December 30, 2011




                                                                                                 11
                                                                                        Appendix III



Composite Indicator: Progress in
Institutional Development
This complex performance indicator quantifies five aspects of performance—portfolio at risk,
operating expense cost ratio, loan officer productivity, operational self-sufficiency, and financial
self-sufficiency—and other factors including the size of the microfinance institution and converts
the summation to a letter score.

Definitions of the five performance components follow:

   Portfolio at risk. Portfolio at risk is the percent of total portfolio in arrears for more than 30
   days.

   Operating expense cost ratio. Operating expense cost ratio is total operation expenses
   divided by average total assets.

   Loan officer productivity. Loan officer productivity is the value of the outstanding loan
   portfolio divided by number of loan officers.

   Operational self-sufficiency. Operational self-sufficiency is total operating income divided by
   all direct (nonfinancial) costs.

   Financial self-sufficiency. Financial self-sufficiency is total operating income divided by total
   operating costs adjusted for inflation and subsidies.

The audit verified data for the following components of the performance indicator: total number
of borrowers, value of loan portfolio, and average loan size.




                                                                                                  12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
